         OFFICE OF INSPECTOR GENERAL 




                                  Catalyst for Improving the Environment


Evaluation Report




       EPA’s Office of Air and Radiation
       Needs to Improve Compliance
       with Audit Followup Process

       Report No. 08-P-0080

       February 12, 2008
Report Contributors:	              Rick Beusse
                                   Hilda Canes Garduño
                                   James Hatfield
                                   Michael Young




Abbreviations

AFC          Audit Followup Coordinator
EPA          U.S. Environmental Protection Agency
MATS         Management Audit Tracking System
OAQPS        Office of Air Quality Planning and Standards
OAR          Office of Air and Radiation
OCFO         Office of the Chief Financial Officer
OIG          Office of Inspector General
OMB          Office of Management and Budget
                       U.S. Environmental Protection Agency                                              08-P-0080 

                                                                                                  February 12, 2008

                       Office of Inspector General


                       At a Glance
                                                                         Catalyst for Improving the Environment

Why We Did This Review           EPA’s Office of Air and Radiation Needs to
The Office of Inspector          Improve Compliance with Audit Followup Process
General (OIG) undertook this
                                  What We Found
review to determine (1) the
status of corrective actions     EPA’s Office of Air and Radiation (OAR) had generally taken corrective actions
responding to OIG                to implement the recommendations for the five air-related reports we reviewed.
recommendations for selected     However, documented evidence of completion of agreed-to corrective actions was
OIG air reports, and (2) how     in the files for only 1 of 29 corrective actions. Upon reviewing additional
complete and up to date the      information not contained in the official files, we determined that corrective
Management Audit Tracking        actions had been completed for 26 of the 29 agreed-to recommendations reviewed.
System (MATS) is for             The three incomplete corrective actions had not been implemented within 1 year,
selected OIG air reports.        as stipulated in EPA Manual 2750, and OAR had not notified the OIG of these
                                 delays.
Background
                                 Also, OAR did not follow the processes specified in EPA Manual 2750 for
Audit followup is essential to   certifying the completion and implementation of corrective actions. In two
good management and              instances where OAR reported audits as inactive – meaning corrective actions
improving the efficiency and     were completed – the required certifications were not completed and placed in the
effectiveness of U.S.            official files.
Environmental Protection
Agency (EPA) programs and        The Agency’s audit tracking system (MATS) was incomplete and contained
operations. EPA has audit        mistakes. OAR omitted from MATS 10 agreed-to corrective actions pertaining to
followup procedures and          two reports. For another instance, the information in MATS was inaccurate
designated officials who         because the Agency had mistakenly included the recommendations and corrective
manage this process. EPA         actions pertaining to a different OIG report, while omitting the relevant six
Manual 2750 outlines the audit   agreed-to corrective actions. Thus, the MATS record was incomplete or
followup process. EPA is         inaccurate for 16 of the 29 agreed-to corrective actions reviewed.
required to report to Congress
on audit followup, including     Prior to issuance of this report, OAR updated MATS to correct the errors and
any reasons for delays in        omissions noted during our review and obtained certification memorandums for
taking corrective actions not    the two inactive reports.
implemented within 1 year of
issuing a report.                 What We Recommend

For further information,         We recommend that OAR comply with EPA Manual 2750 by (1) biannually
contact our Office of            reviewing audit management information for accuracy and completeness;
Congressional and Public         (2) completing the certification process for closing out reports; and
Liaison at (202) 566-2391.
                                 (3) maintaining a list of specific corrective actions taken. We also recommend
To view the full report,         that OAR ensure that newly appointed Audit Followup Coordinators receive audit
click on the following link:     management training before taking over the position’s roles and responsibilities.
www.epa.gov/oig/reports/2008/    EPA concurred with our recommendations and submitted a corrective action plan
20080212-08-P-0080.pdf           with milestones that addressed our concerns.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL


                                        February 12, 2008

MEMORANDUM

SUBJECT:               EPA’s Office of Air and Radiation Needs to Improve Compliance with
                       Audit Followup Process
                       Report No. 08-P-0080


FROM:                  Wade T. Najjum
                       Assistant Inspector General for Program Evaluation

TO:                    Robert J. Meyers
                       Principal Deputy Assistant Administrator for Air and Radiation


This is our report on audit followup conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the
problems the OIG has identified and the corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $142,924.

Action Required

The Office of Air and Radiation corrective action plan, if properly implemented, addresses our
concerns. Therefore, in accordance with EPA Manual 2750, EPA’s Audit Management Process,
we are closing this report upon issuance. As outlined in EPA Manual 2750, the Agency is
responsible for tracking the implementation of these records in its Management Audit Tracking
System. We have no objections to the further release of this report to the public. This report will
be available at http://www.epa.gov/oig.

Should you or your staff have any questions regarding this report, please contact Rick Beusse,
Director for Program Evaluation, Air & Research Issues, at (919) 541-5747 or
beusse.rick@epa.gov; or Jim Hatfield, Project Manager, at (919) 541-1030 or
hatfield.jim@epa.gov.
                                  EPA’s Office of Air and Radiation Needs to Improve 

                                      Compliance with Audit Followup Process 




                                        Table of Contents 

Purpose..............................................................................................................................    1     


Background .......................................................................................................................       1 


Noteworthy Achievements...............................................................................................                   2 


Scope and Methodology ..................................................................................................                 2 


Results of Review .............................................................................................................          3 


         Corrective Actions Generally Completed but Not Documented .................................                                     3 

         Certification Memos Not Completed for Inactive Reports ..........................................                               4 

         MATS Contained Incorrect and Incomplete Information ............................................                                4 


Conclusions ......................................................................................................................       5 


Recommendations............................................................................................................              5 


Agency Comments and OIG Evaluation ........................................................................                              5


Status of Recommendations and Potential Monetary Benefits....................................                                            6 




Appendices
     A       Audit Management Responsibilities.................................................................                          7 


     B       Status of Agreed-to Recommendations...........................................................                              8 


     C       List of Recommendations without Agreement................................................                                   9 


     D       Agency Response to Draft Report ...................................................................                        12 


     E       Distribution ........................................................................................................      15 

Purpose
The purpose of this project was to evaluate the status of corrective actions taken by the U.S.
Environmental Protection Agency (EPA) in response to selected Office of Inspector General
(OIG) air reports. Our objectives were to determine:

       1.	 What is the status of agreed-to corrective actions responding to OIG report
           recommendations for selected air reports?

       2.	 How complete and up to date is the Management Audit Tracking System (MATS)
           report information for selected OIG air reports?

Background
The Inspector General Act of 1978 established OIGs in Federal agencies to conduct independent
audits and investigations of agency programs and operations, and make recommendations to
improve their efficiency and effectiveness. Amendments to the Act added in 1988 directed
agencies to report to Congress semiannually on the status of followup on OIG audit report
recommendations.

The Office of Management and Budget (OMB) Circular A-50 specifies certain timeframes for
audit resolution and requires agencies to develop systems to ensure prompt implementation of
audit recommendations. According to OMB Circular A-50, audit followup is essential to good
management and is a shared responsibility of agency managers and audit organizations. The
EPA OIG’s commitment to followup is reflected in the 2004-2008 Strategic Plan, with the aim of
improving accountability for actions leading to environmental improvements.

EPA’s policy and procedures on the audit followup process are in EPA Manual 2750, most
recently revised in 1998. EPA Manual 2750 implements OMB Circular A-50 and the Inspector
General Act Amendments of 1988. The Manual specifies a chain of responsibility for the audit
management process, starting with the Chief Financial Officer as the Agency’s designated Audit
Followup Official. According to EPA Manual 2750, the Agency’s Audit Followup Official has
“personal responsibility” for Agency-wide audit resolution. Other key positions and duties in the
audit management chain include:

       •	 Action Official - Certifies that corrective actions are complete.
       •	 Audit Management Official - Develops and maintains office-specific procedures for
          audit followup and resolution and designates office-specific Audit Followup
          Coordinators.
       •	 Audit Followup Coordinator (AFC) - Serves as a contact point for the OIG and
          maintains official files.

OIG reports usually contain recommendations for Agency action officials to take corrective
actions to address the findings and conclusions of the report. When the Agency and the OIG
agree on the corrective actions, this decision is documented in the Management Decision letter.



                                                1

EPA Manual 2750 requires actions to be completed within 365 days of the management
decision, or otherwise explain reasons for delay.

The Office of the Chief Financial Officer (OCFO), responsible as the Audit Followup Official,
maintains and operates MATS to track audit followup, report, and resolution dates, and
corrective actions Agency-wide. However, OCFO only requires limited information to be
entered into MATS, including milestone dates, financial information (if applicable), and
explanations for missed deadlines. Further details on the status and actions taken to implement
corrective actions must be documented by the Action Official’s office. This information is
essential for the Agency to assess and certify that agreed-to actions are completed.

According to EPA Manual 2750, official files are required to include seven major elements:

       •	 Names of Action Official and other parties responsible for implementing, tracking,
          following up, and reporting on corrective actions
       •	 Draft reports
       •	 Response to draft reports
       •	 Final reports
       •	 Approved Management Decisions
       •	 OIG Management Decision acceptance memoranda
       •	 All pertinent documentation and certification information

Together, MATS and official files document an audit’s history, as well as the actions taken by
the Agency to address recommendations and correct deficiencies. Appendix A provides
additional details on position responsibilities in the audit management process.

Noteworthy Achievements
In response to a prior OIG report that found problems with the Agency’s audit follow process,
OCFO, in conjunction with OIG, conducted training in August 2007 for AFCs on complying
with EPA Manual 2750 and the audit followup process. The AFC in the Office of Air and
Radiation’s (OAR’s) Office of Air Quality Planning and Standards (OAQPS) completed this
training in August, about 1 year after he took over the audit followup responsibilities for OAR.
Recognizing the complexity of the air quality programs, OAR/OAQPS assigned AFC duties to a
technical staff member to improve both communication and responsiveness to the OIG.

The OAQPS AFC recently completed a number of actions to correct issues noted during our
review. For example, the MATS database was corrected for the three reports that were in error
and certification memorandums were obtained for both of the inactive reports. Further, the AFC
was in the process of implementing the OCFO’s September guidance to verify MATS data for all
reports.

Scope and Methodology
We conducted our evaluation from July 2007 to December 2007. We selected for review five
OIG Office of Program Evaluation air reports issued from September 2003 to May 2006 (see


                                                2

Appendix B). This allowed us to test the implementation status of agreed-to corrective actions
after the 1-year implementation timeframe provided in EPA Manual 2750. We reviewed 29
agreed-to corrective actions resulting from the reports’ recommendations. These five reports
also contained 21 recommendations the Agency did not agree to implement (see Appendix C);
consequently, no corrective action was required at this time.

Our evaluation consisted of reviewing: (1) official OAR report files, (2) EPA MATS reports
generated in July and October 2007, and (3) EPA documentary evidence obtained from the
affected program entities regarding actions taken. In addition, we interviewed key EPA officials
responsible for implementing or overseeing these corrective actions, including the EPA AFC for
OAQPS. We used this information to assess the completeness of Agency actions on our reports.
We did not review the entire MATS system or MATS files for OIG reports other than the five in
our scope. We did not assess the effectiveness of the Agency’s corrective actions in resolving
the findings identified in each report.

We performed this review in accordance with generally accepted government auditing standards
issued by the Comptroller General of the United States.

Results of Review
OAR needs to improve its audit management process to comply with EPA Manual 2750. We
found that OAR:

       •	 Generally completed corrective actions but did not document evidence of completion
          in the official files.
       •	 Did not complete certification memorandums for reports classified as inactive.
       •	 Entered incorrect or incomplete information in MATS for approximately half of the
          corrective actions reviewed.

We believe these conditions existed because of a lack of OAR internal controls over the audit
management process. Not complying with EPA Manual 2750 can result in loss of accountability
over corrective actions, and adversely affects the completeness and accuracy of the Agency’s
annual reporting process and its reports to Congress.

       Corrective Actions Generally Completed but Not Documented

       OAR completed and implemented the agreed-to corrective actions for 26 of 29
       recommendations. However, the Agency’s documentation of corrective actions was not
       in the official files as required. OAQPS’s official files contained status reports indicating
       that OAR was taking steps toward fulfilling the corrective actions. However, evidence of
       completion of agreed-to corrective actions was documented in the files for only 1 of the
       29 corrective actions. EPA Manual 2750 requires that the official files contain
       documentation showing completion of the corrective actions. Upon reviewing additional
       information not contained in the official files, we determined that 26 of the 29 corrective
       actions were completed and the Agency had ongoing actions to address the 3 remaining
       agreed-to corrective actions. The two reports for which the three corrective actions were


                                                 3

not completed were properly classified as “active” in MATS. According to the AFC,
OAQPS’s practice was to maintain evidence of corrective actions in decentralized files,
but will now maintain such evidence in the official files as required by EPA Manual
2750.

Certification Memos Not Completed for Inactive Reports

EPA designated three of the five reports under followup review as “active” in MATS,
meaning that corrective actions have not yet been completed. For the two remaining
reports, MATS listed them as “inactive,” meaning that corrective actions were complete.
The two inactive reports’ official files did not contain the certification memos required by
EPA Manual 2750. The following table lists the two inactive reports.

Table 1: Reports in Inactive Status Without Certification Memos in Official Files
                      Report Name                        Report No.             Date
 Decline In EPA Particulate Matter Methods              2003-P-00016    September 30, 2003
 Development Activities May Hamper Timely
 Achievement of Program Goals
 EPA Needs to Direct More Attention, Efforts, and       2005-P-00004     February 7, 2005
 Funding to Enhance Its Speciation Monitoring
 Program for Measuring Fine Particulate Matter
Source: MATS and OIG review of official files.


EPA Manual 2750 establishes a process for closure of OIG reports. An Action Official is
responsible for maintaining documentation of corrective actions. For each action, the
designated Action Official is also required to certify “in writing that the corrective
actions are complete.” The AFC is then required to keep this certification in the official
file. A report should not be placed in inactive status in MATS until this step has
occurred. Entry of a final action date by an AFC automatically triggers MATS to
inactivate the report without further verification by OCFO. OCFO believes it is the
AFC’s responsibility to have the certification memo in-hand before entering the final
action date into MATS. Without the accountability of a certification memo, reports can
be inactivated from the audit tracking system without corrective actions actually being
completed.

MATS Contained Incorrect and Incomplete Information

The MATS record was incomplete or inaccurate for 16 of the 29 agreed-to corrective
actions we reviewed. These 16 corrective actions pertained to 3 of the 5 reports we
reviewed. For one report, the official file contained updates on agreed-to corrective
actions from a different OIG report. As a result, the MATS record reflected the status of
the corrective actions for the wrong report and did not show the status of the six agreed-to
corrective actions for the subject report. In another instance, OAR had not entered any
information into MATS for the eight agreed-to corrective actions resulting from the OIG
report. Similarly, information was missing in the MATS database for two corrective
actions resulting from another OIG report. The three reports are listed in Table 2, while
additional details are in Appendix B.


                                                 4

       Table 2: Reports with Incomplete or Inaccurate MATS Records
                               Report Name                    Report No.           Date
        Decline In EPA Particulate Matter Methods            2003-P-00016    September 30, 2003
        Development Activities May Hamper Timely
        Achievement of Program Goals
        EPA and States Not Making Sufficient Progress in     2004-P-00033    September 29, 2004
        Reducing Ozone Precursor Emissions in Some Major
        Metropolitan Areas
        Substantial Changes Needed in Implementation and     2005-P-00010       March 9, 2005
        Oversight of Title V Permits If Program Goals Are to
        Be Fully Realized
       Source: MATS and OIG review of official files.


       In September 2007, in response to a prior OIG report that found problems with the
       Agency’s audit followup process, OCFO issued a memorandum that stressed that
       program offices should make certain that information in the Agency’s MATS is
       complete, accurate, and verifiable.

Conclusions
OAR generally implemented agreed-to corrective actions. However, OAR did not comply with
EPA Manual 2750. Thus, it is vulnerable to loss of accountability over corrective actions and
inaccurate external reporting. Official files containing accurate and complete documentation of
corrective action implementation are important to properly managing audit report followup. It
also assists in the continuity of followup when staff turnover occurs. Inaccurate audit followup
adversely affects the completeness and accuracy of the Agency's annual reporting process and its
reports to Congress.

Recommendations
We recommend that the Principal Deputy Assistant Administrator for Air and Radiation:

       1.	 Comply with EPA Manual 2750 by:
                a.	 biannually reviewing audit management information for accuracy and
                    completeness,
                b.	 completing the certification process for closing out reports, and
                c.	 maintaining a list of specific corrective actions taken.

       2. 	 Ensure that newly appointed AFCs receive audit management training before they
            take over the position’s roles and responsibilities.

Agency Comments and OIG Evaluation
EPA concurred with our recommendations and submitted a corrective action plan with
milestones to implement the recommendations. The Agency’s proposed corrective actions
sufficiently address our concerns. A copy of the Agency’s complete response to our draft report,
including its corrective action plan, is found in Appendix D.


                                                        5

                                   Status of Recommendations and
                                     Potential Monetary Benefits

                                                                                                                                 POTENTIAL MONETARY
                                                       RECOMMENDATIONS                                                            BENEFITS (in $000s)

                                                                                                                     Planned
     Rec.    Page                                                                                                   Completion   Claimed    Agreed To
     No.      No.                           Subject                            Status1       Action Official           Date      Amount      Amount

      1        5	    Comply with EPA Manual 2750 by: (a) biannually              O           Principal Deputy       6/11/2008
                     reviewing audit management information for                           Assistant Administrator
                     accuracy and completeness, (b) completing the                         for Air and Radiation
                     certification process for closing out reports, and
                     (c) maintaining a list of specific corrective actions 

                     taken.


      2        5	    Ensure that newly appointed AFCs receive audit              O           Principal Deputy       6/11/2008
                     management training before they take over the                        Assistant Administrator
                     position’s roles and responsibilities.                                for Air and Radiation




1	    O = recommendation is open with agreed-to corrective actions pending;
      C = recommendation is closed with all agreed-to actions completed;
      U = recommendation is undecided with resolution efforts in progress




                                                                                     6

                                                                                  Appendix A

                   Audit Management Responsibilities

           Title                                          Duties
 Agency Audit Followup     •   Ensures Agency-wide audit resolution and that systems for audit
        Official               followup are in place
                           •   Ensures corrective actions are actually implemented
                           •   Designates an Agency Audit Followup Coordinator
 Agency Audit Followup     •   Maintains and conducts quality assurance and analysis of the
     Coordinator               Agency audit tracking system and data
                           •   Prepares reports to Congress
     Action Officials      •   Implements the audited program (commonly the Regional or
                               Assistant Administrator to whom the report is addressed)
                           •   Ensures that corrective actions are documented, tracked, and
                               implemented
                           •   Certifies that corrective actions are complete (or designates a
                               certifying official to do so)
   Audit Management        •   Is designated in each regional and national program office
        Officials          •   Develops and maintains office-specific procedures for audit
                               followup and resolution
                           •   Designates office-specific Audit Followup Coordinators
                           •   Ensures managers and staff within their office understand the
                               audit management process and take timely and appropriate
                               corrective actions
     Audit Followup        •   Serves as a contact point for OIG
      Coordinators         •   Provides guidance and ensures that responses to OIG reports
                               are complete and timely
                           •   Maintains official files containing the record of management
                               decisions and certifications of completed corrective actions
                           •   Provides status reports to the Agency Audit Followup Coordinator
                               on corrective actions and audit resolution, and tracks reasons for
                               delay
Source: EPA Manual 2750.




                                               7

                                                                                                  Appendix B

                Status of Agreed-to Recommendations
                                                             Evidence of                     Correct
                                             Recom            Corrective    Corrective     Information
                                             mend             Action in      Action        Recorded in
             OIG Report                       ation           OAR File?     Complete?        MATS?          Notes
Decline in EPA Particulate Matter              2-1               No            Yes              No           1/
Methods Development Activities May             2-2               No            Yes              No
Hamper Timely Achievement of                   2-3               No            Yes              No
Program Goals (Report No.                      3-1               No            Yes              No
2003-P-00016, September 30, 2003)              3-2               No            Yes              No
                                               3-3               No            Yes              No
EPA and States Not Making Sufficient            3-1              No             Yes              No            2/
Progress in Reducing Ozone Precursor            3-4              No             Yes              No
Emissions in Some Major Metropolitan            3-6              No             Yes              No
Areas (Report No. 2004-P-00033,                 6-2              No             No               No
September 29, 2004)                             6-3              No             Yes              No
                                                8-1              No             Yes              No
                                                8-2              No             Yes              No
                                                8-4              No             Yes              No
EPA Needs to Direct More Attention,             3-1             No              Yes             Yes
Efforts, and Funding to Enhance Its             3-2             No              Yes             Yes
Speciation Monitoring Program for               3-3             No              Yes             Yes
Measuring Fine Particulate Matter               3-4             No              Yes             Yes
(Report No. 2005-P-00004,                       3-5             Yes             Yes             Yes
February 7, 2005)
Substantial Changes Needed in                   2-3              No             Yes             No             3/
Implementation and Oversight of Title V         2-4              No             No              Yes
Permits If Program Goals Are to Be              2-5              No             Yes             Yes
Fully Realized (Report No.                      2-6              No             No              Yes
2005-P-00010, March 9, 2005)                    2-7              No             Yes             Yes
                                                3-2              No             Yes             No
                                                3-3              No             Yes             Yes
                                                3-4              No             Yes             Yes
                                                4-1              No             Yes             Yes
Monitoring Needed to Assess Impact of           3-1              No             Yes             Yes
EPA’s Clean Air Mercury Rule on
Potential Hotspots (Report No.
2006-P-00025, May 15, 2006)
Source: Data obtained from OIG reports, MATS, and review of OIG files.

NOTES:    1/   Information in OAR official file and MATS was for another report’s recommendations. No data on this
               report’s corrective actions were in MATS.
          2/   No information recorded in MATS for this report’s corrective actions. OAQPS plans to complete
               corrective action for Recommendation 6-2 in February 2008.
          3/   No information recorded in MATS for two of report’s corrective actions. OAQPS plans to complete
               corrective action for Recommendation 2-4 by Spring 2008. OAR has not implemented corrective
               action for Recommendation 2-6 and maintained that recommended training is unnecessary.




                                                        8

                                                                                  Appendix C

        List of Recommendations without Agreement
      OIG Report                                       Recommendation
EPA and States Not     2-1   Perform an in-depth evaluation of the compliance of all serious to extreme
Making Sufficient            nonattainment areas with emission reduction requirements using, at a
Progress in Reducing         minimum, precursor emissions data contained in the Agency’s National
Ozone Precursor              Emissions Inventory database.
Emissions in Some      2-2   Implement contingency measures and additional controls, where
Major Metropolitan           appropriate, as required under Section 182(g)(3) of the Act, if
Areas (Report No.            nonattainment areas have not met the Act’s emission reduction
2004-P-00033,                requirements, including the use of any enforcement and/or sanctions
September 29, 2004)          available under Section 179 of the Act for failure of a State to submit
                             adequate plans and/or failure to timely and adequately implement planned
                             controls to achieve required emission reductions by the statutory milestone
                             dates.
                       3-2   Require evaluation of proposed Rate-of-Progress Plans by EPA regional
                             air programs to assure the propriety of Rate-of-Progress assumptions,
                             projections, and related emission reductions in comparison to available
                             emission databases and historical data.
                       3-3   Develop guidance for analyzing and comparing periodic emission
                             inventories to projected emission target levels and evaluating assumptions
                             used in applicable Rate-of-Progress Plans, in order to: (1) reconcile
                             differences between projected and actual inventories; (2) identify any
                             incorrect assumptions or projections and understatement of needed
                             emission reductions; and (3) establish improvements that may be needed
                             in the Rate-of-Progress development process, and ensure training of staff
                             in conducting these analyses.
                       3-5   Revise EPA’s “Clean Data” policy to require meteorologically adjusted
                             ozone trend analyses and trend analyses of ambient Volatile Organic
                             Compound and Nitrogen Oxide concentrations for nonattainment areas
                             that attain the ozone standard based on ambient ozone monitoring data, to
                             better assure the permanence of such attainments before suspending
                             Rate-of-Progress Plan development and approval.
                       4-1   Subject the policy claiming outside emissions to the notice-and-comment
                             rulemaking process, which will allow broad public comment and feedback.
                       4-2   Revise policy for nonattainment area outside emission reduction credit to:
                             a. Encourage broadening of controls for sources in outside areas in order
                             for a nonattainment area to claim emission reduction credits.
                             b. Require atmospheric modeling to support the impact of outside
                             emissions and sources on nonattainment area ozone levels.
                             c. Require that the emission baselines from all selected outside areas be
                             included in Rate-of-Progress baseline emissions for calculating required
                             emission reductions and measuring achievement of reductions.
                             d. Establish a methodology, such as atmospheric modeling, to document
                             the extent of benefits that Nitrogen Oxide and Volatile Organic Compound
                             emissions reductions from outside the area have on individual
                             nonattainment areas to prevent improper double-counting of emission
                             reductions when a State has multiple nonattainment areas.
                             e. Require that outside sources or areas included in post-1996 Rates-of-
                             Progress also be included in subsequent Periodic Emissions Inventories
                             for each applicable nonattainment area.




                                               9

OIG Report                                     Recommendation
             5-1   Expedite issuance of the milestone compliance guidance, but restrict the
                   use of observed ambient zone levels as a stand-alone indicator of
                   emission reductions. The guidance should also require the use of
                   meteorologically adjusted ozone trends and trends in ambient
                   concentrations of Volatile Organic Compounds and Nitrogen Oxides in the
                   weight of evidence approach.
             5-2   Instruct States to utilize indicators, as reflected in the draft milestone
                   compliance demonstration guidance, and/or provide annual updates to
                   emissions inventories (one third of sources per year or one third of States
                   per year) to determine potential or actual emission reductions within the
                   Act’s 90-day time frame for milestone compliance demonstrations.
             5-3   Require that nonattainment areas update baseline inventories and,
                   subsequently, perform more in-depth assessments of actual emission
                   reductions, once the applicable Periodic Emissions Inventories are
                   completed. This subsequent determination of actual emission reductions
                   may not meet the milestone compliance demonstration 90-day time frame
                   but will provide a measure of progress that is not currently available.
             5-4   Incorporate the use of updated National Emissions Inventory data and
                   other available measures, where appropriate, into milestone compliance
                   demonstration guidance as top-down indicators or measures of
                   nonattainment area progress in reducing precursor emissions.
             5-5   Require State and local agencies to update past baseline and periodic
                   emission inventories based on the latest models, emission factor, and
                   methodologies, and complete milestone compliance demonstrations for
                   1990 through 1999 (or later milestone year) for nonattainment areas based
                   on the issued milestone compliance guidance. Further, for future
                   inventories, require States to continuously update inventories as new
                   emissions data and methods are developed, to provide timely
                   assessments of nonattainment area progress in reducing precursor
                   emissions.
             6-1   Develop analytical procedures and processes for EPA and/or States to
                   utilize updated National Emissions Inventory data for measuring the
                   progress of individual 8-hour nonattainment areas in reducing precursor
                   emissions and complying with the Act’s emission reduction mandates.
             7-1   Establish annual and multi-year goals and performance measures for
                   ozone precursor emission reductions by individual nonattainment areas
                   and require State and local agencies to submit evidence that these goals
                   have been met.
             7-2   Once annual goals and measures are established, include the goals and
                   measures in EPA, State, and local agencies’ annual and strategic plans,
                   and provide accomplishments toward these goals in EPA’s annual
                   performance reports.
             8-3   To the extent possible, expedite the regulatory process for releasing ozone
                   Data Quality Objectives for use in State air monitoring Quality Assurance
                   Project Plans.
             8-5   Promulgate policies and procedures which require regions to obtain State
                   Periodic Emissions Inventories and review the Periodic Emissions
                   Inventories for quality and compliance with EPA emission inventory
                   development guidance.




                                    10

      OIG Report                                               Recommendation
Substantial Changes          2-1    Develop and issue guidance or rulemaking on annual compliance
Needed in                           certification content which requires responsible officials to certify
Implementation and                  compliance with all applicable terms and conditions of the permit, as
Oversight of Title V                appropriate.
Permits If Program           2-2    Issue the draft rule regarding intermittent versus continuous monitoring as
Goals Are to Be Fully               it relates to annual compliance certifications and including credible
Realized (Report No.                evidence.
2005-P-00010, March 9,       3-1    Promulgate the draft order of sanctions rule which provides notice to State
2005)                               and local agencies, as well as the public, regarding the actions that will be
                                    taken when Notices of Deficiency are not timely resolved by State and
                                    local Title V permitting authorities.
Monitoring Needed to         2-1    Work with the Assistant Administrator for the Office of Research and
Assess Impact of EPA’s              Development to develop and implement a mercury monitoring plan,
Clean Air Mercury Rule              including milestones and responsible program offices for implementing
on Potential Hotspots               each component of the plan, to: (1) assess the impact of Clean Air
(Report No. 2006-P                  Mercury Rule, if adopted, on mercury deposition and fish tissue; and
00025, May 15, 2006)                (2) evaluate and refine, as necessary, mercury estimation tools and
                                    models. This effort should consider the suitability of the Office of Research
                                    and Development’s mercury research plan for addressing these
                                    objectives.
Source: Data obtained from OIG reports, MATS, and review of OIG files.




                                                       11

                                                                                    Appendix D

                  Agency Response to Draft Report

                                        February 1, 2008

MEMORANDUM


SUBJECT:       Response to Draft Evaluation Report: “EPA’s Office of Air
               and Radiation Needs to Improve Compliance with Audit
               Followup Process, Assignment No. 2007-00926

FROM:          Robert J. Meyers
               Principal Deputy Assistant Administrator

TO:            Wade T. Najjum
               Assistant Inspector General for Program Evaluation


Thank you for the opportunity to comment on the draft report, “EPA’s Office of Air and
Radiation Needs to Improve Compliance with Audit Followup Process, (Assignment No. 2007­
00926). The Office of Air and Radiation concurs with the findings described in the draft report
and the proposed recommendations.

We recognize the importance of audit followup procedures and have made it a priority to quickly
correct any deficiencies and take action to ensure a high quality followup program. OAR has
started development of a standard operating procedure to enhance our compliance with EPA
Order 2750. Additionally, we have taken corrective actions for the issues identified in the report
such as updating the Management Audit Tracking System (MATS) and obtaining certification
memoranda for closure of OIG reports. OAR’s Corrective Action Plan and schedule are attached.

Thank you again for the opportunity to comment on the draft evaluation report. If you have
questions, please contact Michael Boucher, OAQPS Audit Follow-up Coordinator, at
(919) 541-7627.

Attachments

cc: 	   Elizabeth Craig, OAR
        Steve Page, OAR
        Omayra Salgado, OAR
        Michael Boucher, OAR
        Peter Cosier, OAR
        Jim Hatfield, OIG
        Sharon Tant, OCFO


                                               12

                                                                                       Attachment 1

EVALUATION OF OIG’s RECOMMENDATIONS

Recommendation 1: Comply with EPA Order 2750 by: (a) biannually reviewing audit
management information for accuracy and completeness, (b) completing the certification
process for closing out reports, and (c) maintaining a list of specific corrective actions
taken.

OAR concurs with this recommendation. OAR is currently developing a Standard Operating
Procedure to ensure the following actions:

       a) review all audit management information including completeness of official
       files on a biannual basis. These reviews will be conducted every March and
       September to coincide with the Agency's requirement under EPA Order 2750
       and the IG Act to report to Congress on the status of completing corrective
       actions. Every effort will be made to maintain the completeness and accuracy of
       the information.

       b) ensure certification memorandums are filed upon completion of correction
       action plans as a final action to close out audits. OAR AFCs will ensure Action
       Officials, or their designates, for all current and past audits understand that they
       are required to provide a certification letter to the AFC when all corrective actions
       are completed. Once the certifications letters are received, the AFC will enter the
       necessary information into MATS; provide OCFO notification of the Final Action
       Date enabling them to move the report to Inactive status.

       c) maintain a brief description of the corrective actions taken by the Action
       Official in MATS and the official file.




Recommendation 2: OAR ensure that newly appointed Audit Followup Coordinators
receive audit management training before they take over the position’s roles and
responsibilities.

OAR concurs with this recommendation. Future AFC's will be required to be trained on
EPA Order 2750 requirements before accepting full responsibilities as an AFC. This
requirement will be included on the SOP being developed to satisfy recommendation 1.




                                                13

                                                                              Attachment 2

OAR’s CORRECTIVE ACTION PLAN


Number        Recommendation                 Planned Corrective            Planned
                                                     Action              Completion
   1     Comply with EPA Order 2750       Conduct an assessment       Within 60 days of
         by:                              of MATS to ensure           issuance of OIG’s
         (a) biannually reviewing audit   current information is      Final report
         management information for       complete, accurate and
         accuracy and completeness,       verifiable
         (b) completing the
         certification process for        Develop an SOP which        Within 3 months
         closing out reports, and         fully addresses             of the issuance of
         (c) maintaining a list of        compliance with EPA         the OIG’s Final
         specific corrective actions      Order 2750                  Report
         taken.

   2     Ensure that newly appointed      Require that future AFC’s   As soon as
         AFCs receive audit               be trained on EPA Order     training is
         management training before       2750 requirements           available before
         they take over the position’s    before accepting full       accepting AFC’s
         roles and responsibilities.      responsibilities            responsibilities.




                                           14

                                                                            Appendix E

                                      Distribution

Office of the Administrator
Principal Deputy Assistant Administrator for Air and Radiation
Agency Followup Official (the CFO)
Agency Followup Coordinator
Office of General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Audit Followup Coordinator, Office of Air and Radiation
Deputy Inspector General




                                               15

